APPLICATION AND
SOLICITATION
DISCLOSURE
VISA/VISA SIGNATURE

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa

1.99% Introductory APR for six months from account opening.
6.24% to 17.99%

After that, your APR will be
, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Signature

1.99% Introductory APR for six months from account opening.
7.24% to 17.99%

After that, your APR will be
, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
APR for Balance Transfers

Visa
1.99% Introductory APR for six months from account opening.
After that, your APR will be 6.24% to 17.99%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Signature
1.99% Introductory APR for six months from account opening.
After that, your APR will be 7.24% to 17.99%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

APR for Cash Advances

Visa
6.24% to 17.99%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Signature
7.24% to 17.99%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

How to Avoid Paying Interest on
Purchases
Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection Bureau

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
If you are charged interest, the charge will be no less than $0.50.
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03105847-MXC10-P-6-021219 (MXC101-E)

Fees
Annual Fee
- Annual Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

None
None
$10.00 or 3.00% of the amount of each cash advance, whichever is greater
1.00% of each transaction in U.S. dollars
Up to $25.00
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (excluding new purchases) (including new balance transfers and cash
advances)."
Minimum Interest Charge:
The minimum interest charge will be charged on any dollar amount.
Effective Date:
The information about the costs of the card described in this application is accurate as of April 27, 2020.
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa and Visa Signature are secured credit cards. Credit extended under this credit
card account is secured by various personal property and money including, but not limited to: (a) any goods you
purchase with this account, (b) any shares you specifically pledge as collateral for this account on a separate
Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit Union excluding shares
in an Individual Retirement Account or in any other account that would lose special tax treatment under state or
federal law, and (d) collateral securing other loans you have with the Credit Union excluding dwellings.
Notwithstanding the foregoing, you acknowledge and agree that during any periods when you are a covered
borrower under the Military Lending Act your credit card will be secured by any specific Pledge of Shares you grant
us but will not be secured by all shares you have in any individual or joint account with the Credit Union. For clarity,
you will not be deemed a covered borrower if: (i) you establish your credit card account when you are not a covered
borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if you are three or more days late in making a
payment.
Cash Advance Fee (Finance Charge):
$10.00 or 3.00% of the amount of each cash advance, whichever is greater.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03105847-MXC10-P-6-021219 (MXC101-E)

